Platinum MasterCard™ Credit Card
Agreement & Federal Truth-In-Lending
Disclosure Statement
Effective October 3, 2017
In this Agreement and Disclosure Statement, the words YOU, YOUR and YOURS mean each and
all those who apply for, sign or use the Card. WE, US, OUR, and OURS mean USE Credit Union.
CARD means the Platinum MasterCard Credit Card(s) issued to you and any duplicates and
renewals we may issue. ACCOUNT means your Platinum MasterCard Credit Card Account with us.
You agree to the following terms and conditions and any amendments thereto. By requesting and
receiving, signing, or permitting others to use one of the cards noted above issued to you by USE
Credit Union, you agree as the cardholder to the following terms.

Terms Applicable Only to Savings-Secured Platinum MasterCard
Credit Cards
SECURITY AGREEMENT
®
You understand that this is a savings-secured MasterCard account and, to protect us if you default on your
loan, you are pledging under the California Uniform Commercial Code all funds now, or hereafter, on deposit
in your savings account(s) as designated in writing between you and us (“designated savings account”). You
understand that you must, at all times, keep a sum as designated on your loan application, on deposit in
your designated savings account until the loan is paid in full. You understand that this security interest will
cover future purchases and advances under this Agreement. If you default, we may apply the funds in your
designated savings accounts to repay your loan in accordance with federal and state law (including but not
limited to California Uniform Commercial Code). You understand that the Annual Percentage Rate, under
the Agreement, does not take into account the amount pledged in your designated savings accounts. You
promise and certify that you own the funds in the designated savings accounts pledged under this
Agreement and that there are no liens against them other than ours. You agree to perform all acts that we
deem necessary to make our security interest in the funds pledged enforceable.

Terms Applicable To All Card Types
FINANCE CHARGE: The FINANCE CHARGE on your account, for each billing cycle, will be::
PERIODIC FINANCE CHARGES: Your account will be subject to a periodic FINANCE CHARGE
(interest) at the periodic rate and ANNUAL PERCENTAGE RATE indicated for your Card type in the
“Platinum MasterCard Agreement Rates and Terms” addendum.
How We Compute The Balance Upon Which Periodic FINANCE CHARGES Are Assessed: Separate
daily balances are kept for purchases and cash advances. We add the daily balances for the billing cycle
and divide the total by the number of days in the cycle to get your average daily balance. To get the daily
balance for cash advances, we add new cash advances and subtract any payments or credits. To get the
daily balance for purchases, we add new purchases and subtract any payments or credits.
Grace Period for Purchases: If you pay the entire New Balance shown on a statement (both purchase
and cash advances) within 25 days after the statement closing date, you will not pay additional FINANCE
CHARGES on your purchase balance.
Grace Period for Cash Advances: There is no grace period for cash advances. You will always pay a
FINANCE CHARGE on cash advances from the day you receive the money to the day you repay it. This
will be true even if you pay the entire New Balance shown on a statement (both purchase and cash
advances) within 25 days after the statement closing date. All FINANCE CHARGES for cash advances
(including cash advance transaction fees) begin on the “transaction date.”
Payment: You promise to repay us at our office all sums advanced to you or any other person you permit
to use the account on the terms and at the rates set forth herein. Payments will continue until you have paid
in full the unpaid balance, FINANCE CHARGE and any other fees or charges. If your ANNUAL
PERCENTAGE RATE is changed pursuant to the provisions set forth herein, the number of payments
required to repay the unpaid balance may be affected accordingly.
Minimum Due Payment: We will mail you a statement at least 21 days prior to your payment due date
showing your Previous Balance, the current transactions on your account, the unused credit available under
your Credit Limit, the FINANCE CHARGE due, the total New Balance, and the Minimum Monthly Payment
by the Payment Due Date. By separate agreement, you may authorize us to transfer the Minimum Monthly
Payment automatically from your share or share draft account with us. You may, of course, pay more
frequently, pay more than the Minimum Monthly Payment, or pay the total New Balance in full, and you will
reduce the FINANCE CHARGE by doing so. The minimum monthly payment will be either $15.00 or a
payment percentage of your total New Balance up to your credit limit, whichever is greater. Your payment
percentage will be determined by your rate or Card type as indicated in the table below, plus any amount
which exceeds your Credit Limit and any Amounts “Past Due.” We will apply your payments in the following
order of succession: unpaid fees or charges; unpaid FINANCE CHARGES; previous purchase balance;
previous cash advance balance; current balance of new purchase advances; current balance of new cash
advances. If your minimum payment is not sufficient to cover the unpaid fees and FINANCE CHARGES
due, your payment may be increased to cover those fees and charges, plus any amount which exceeds
your credit limit and any amounts past due:
Rate Range

Payment Percentage

0% – 12.99%
13.9% – 14.9%
15.0% – 21.9%

1.125%
1.25%
2.75%

Late Charge: If your minimum monthly payment is more than 10 days late, you may be charged a late fee.
(See Platinum MasterCard Agreement Rates and Terms for current fee amount).
Credit Protection: You understand that Credit Protection Coverage is not required by us to obtain your
loan. You acknowledge receiving a copy of a credit protection contract and have made the choice indicated
thereon. The monthly cost of the coverage per $100 or portion thereof of the unpaid balance on the last day
of each billing cycle is disclosed on the credit protection contract. The cost of any coverage you have
chosen will be added to your principal balance on the statement date each month.
Credit Limit: We will establish a Credit Limit for you. You agree not to let the unpaid balance exceed this
Credit Limit. You agree to advise us of any change in your financial condition which may affect your
creditworthiness. You agree that you shall update the credit information that you have provided us, from time
to time, on our request. You may request an increase in your Credit Limit, but such increases are subject to
approval by us.
Advances and Purchases: You may request advances and make purchases in accordance with the
current loan policies up to your Credit Limit. You understand that all advances and purchases requested by
you are subject to our approval.
Using the Card: To request an advance, or make a purchase, you may:
1. Present the CARD to a participating MasterCard merchant, to us, or to another financial institution; or
2. Use the CARD in conjunction with your Personal Identification Number (PIN) at an Automated Teller
Machine (ATM) or other type of electronic terminal that provides access to the MasterCard system.
You agree to retain the copy of the draft or receipt which you receive at the time of the transaction to verify
your monthly statement. We reserve the right to make a reasonable charge for photocopies of drafts,
receipts or other documents you may request.
Illegal Use of Card: Your CARD may not be used for any illegal transaction or in an illegal manner (e.g.,
Internet gambling transactions, foreign lottery purchases). We may decline to authorize any transaction that
we believe poses an undue risk of illegality or unlawfulness.
Prepayment or Irregular Payments: Though you need only pay the Minimum Monthly Payment, in
accordance with the terms and conditions set forth herein, you understand that you have the right to repay
your loan at any time without penalty. You also understand that you will only be charged periodic FINANCE
CHARGES to the date you repay your entire loan. You may make larger payments without penalty and this
may reduce the total amount of periodic FINANCE CHARGES that you will repay. Any partial payment of
your loan will not advance your next payment due date(s). You understand that any payment that (a) delays
or (b) accelerates the repayment of your unpaid balance will (a) increase or (b) decrease your periodic
FINANCE CHARGES.
Payments Marked “Paid in Full”: We may accept checks, money orders, or other types of payment
marked “Paid in Full” or using other language to indicate full satisfaction of any indebtedness, without being
bound by such language or waiving any rights under this Agreement. Full satisfaction of indebtedness shall
be accepted by us only in a written agreement, signed by an authorized employee of the credit union.
Default: You will be in default 1) if you do not pay on time or in the proper amount; 2) if you fail to abide by the
terms of this Agreement; 3) if your creditworthiness is impaired; 4) if you die, become insolvent or are the subject
of bankruptcy or receivership proceedings; or 5) when applicable, your security is impaired. In the event of any
action by us to enforce this Agreement, you agree to pay the costs thereof, reasonable attorney’s fees, and other
expenses. You understand that FINANCE CHARGES at the Periodic ANNUAL PERCENTAGE RATE as
permitted under this Agreement will continue to accrue until you repay your entire loan.
Acceleration and Collection Costs: If you are in default, we may demand immediate payment of the
unpaid balance, FINANCE CHARGES, late charges, annual fees, and collection costs, if any. You
understand that you will be charged late charges, if any, and FINANCE CHARGES at the monthly periodic
rate (at the Applicable Periodic Rate), late charges, annual fees, and collection costs under the terms
disclosed in this Agreement, until you repay your entire loan. You also agree to pay our reasonable
attorney’s fees and court costs.
Responsibility: You agree to repay us according to the terms of this Agreement for all purchases,
advances, FINANCE CHARGES, late charges and annual fees, if any, arising from the use of the account
by you or any other person you permit to use your account, even if that person exceeds your permission.
Any person using the account is jointly and severally responsible with you.
Credits: If a merchant who honors your CARD gives you credit for returns or adjustment, he/she will do so
by sending us a credit slip which we will post to your account. If we do not receive credit slips within the
same billing period as the original charge and you do not pay the amount of the original charge with your
payment for the billing period, FINANCE CHARGES will be incurred. If your credits and payments exceed
what you owe us, we will hold and apply this credit against future purchases and cash advances, or refund it
on your written request if it is $1.00 or more, or automatically after 6 months.
Change of Terms: This Agreement is the contract which applies to all transactions on your account even
though the sales, cash advance, or other slips you sign or receive may contain different terms. You
understand that we may amend, modify, add to, or delete from this Agreement any of its terms and
conditions, including the method of application and the amount of periodic FINANCE CHARGE, effective as
to any unpaid balance outstanding and any subsequent advance, by mailing a notice of the change to you at
your last known address. You also understand that any such notice will be mailed at least forty-five (45) days
prior to the effective date of the change as required by Federal or other law. Notice of a change in terms is
required, but may be sent as late as the effective date of the change where the change has been agreed to,
in writing, by you. To the extent the law permits, and we indicate in our notice, amendments will apply to your
existing account balance as well as to future transactions.
Liability for Unauthorized Use: Unless, based on substantial evidence, it is determined that you were
grossly negligent in the handling of the account or CARD, you will not be liable for unauthorized use resulting
from the loss, theft, or other unauthorized use of the CARD, account number on the CARD, the PIN, or any
combination of the three.
Automatic Overdraft Authorization: You authorize us to clear any overdraft(s) on your checking and/or
savings accounts by an advance from your account, in the amount of the overdraft, or in such increments as
we may from time to time determine subject to the terms of this Agreement. If you are not eligible to receive
advances from us under this Agreement, your overdraft(s) may not be covered, your checks may be
returned and your savings and/or checking and/or this Account may be closed. Caution: You understand
that if your checking and/or savings accounts are held jointly, overdraft protection makes it possible for your
joint user to write checks or otherwise access your account which could draw funds from your account(s).

Terms Applicable to All Agreements

Your Billing Rights

Issuance of Personal Identification Number: A Personal Identification Number (PIN) to be used in
conjunction with the Platinum MasterCard Credit Card for access to the MasterCard Global Network will be
issued to you shortly after you receive your CARD. For other electronic fund transfers we will issue a PIN
upon your request.
Electronic Fund Transfer: In the event a use of your CARD or the account number on your CARD
constitutes an electronic fund transfer, the terms and conditions of your electronic fund transfer disclosure
shall govern such transactions to the extent your electronic fund transfer disclosure expands or amends this
Agreement. Your use of the CARD or the account number on your CARD is your authorization to us to
withdraw sufficient funds from your Platinum MasterCard Credit Card account to cover such transactions.
MasterCard Agreement Rates and Terms: You acknowledge receipt of a copy of our Platinum
MasterCard Agreement Rates and Terms, agree to pay such fees and charges, and authorize us to add any
fees and charges to your Platinum MasterCard Credit Card account.
Surrender of Card(s): The CARD(S) remain our property and, if we request, you must surrender to us all
CARD(S) we have issued on your account.
Refusal to Honor Card: Even though your MasterCard Credit Card limit may be sufficient to cover a required
CARD withdrawal, you recognize that merchants, financial institutions, electronic terminals and others who
accept the CARD or the account number on the CARD may not be liable for the refusal or the inability of such
persons or terminals to honor the CARD or complete a CARD withdrawal, or for their retention of the CARD.
Lost or Stolen Card(s): If you believe the CARD, the account number, the PIN, or any combination of the
three has been lost or stolen, you will immediately call (866) 873-4968.
Foreign Transactions: Transactions made or processed in foreign countries will be billed to you in US
dollars. Conversion to US dollars is determined by a rate selected by MasterCard from the range of rates
available in wholesale currency markets for the applicable central processing date, which rate may vary from
the rate MasterCard itself receives or the government mandated rate in effect for the applicable central
processing date plus up to a 1 percent currency conversion fee. The currency conversion fee will appear as
a separate line on your statement for each transaction completed or processed in a foreign country.
Right of Offset: You understand that the use of your card will constitute acknowledgement of receipt and
agreement to the terms of the credit card agreement and disclosures. You grant us a security interest in all
individual and joint share and/or deposit accounts you have with us now and in the future to secure your
credit card account. When you are in default, you authorize us to apply the balance in these accounts to any
amounts due. Shares and deposits in an Individual Retirement Account, and any other account that would
lose special tax treatment under state or federal law is given as security, are not subject to the security
interest you have given in your shares and deposits.
Payable on Demand: You promise to pay us on demand for the amount of the CARD withdrawal that is
honored which cannot be paid through an advance on your Platinum MasterCard Credit Card account.
Credit Information: You authorize us to investigate your credit standing when opening, renewing or
reviewing your account, and you authorize us to disclose information regarding your account to credit
bureaus and other creditors who inquire of us about your credit standing to the extent authorized by law.
Termination: We may terminate this Agreement upon your default. Either you or we may terminate this
Agreement for other good cause. In no event shall any termination relieve you of your obligation to repay sums
already borrowed, periodic FINANCE CHARGES, annual fee, collection costs and late charges, if any.
Transaction Slips: Your monthly statement will identify the merchant, financial institution, or electronic terminal
at which CARD withdrawals were made, but sales, cash advance, credit or other slips will not be returned with
your statement. You will retain the copy of such slips furnished at the time of the transaction in order to verify your
monthly statement. We may make a reasonable charge for photocopies of slips you may request.
Delay in Enforcement: We can delay enforcing any of our rights under this Agreement without losing them.
Governing Law: You understand and agree that this Agreement is made in California and shall be
governed by the laws of the State of California to the extent that California law is not inconsistent with
controlling Federal law. You also understand that California’s choice of law rules shall not be applied if that
would result in the application of non-California law.
Integrated Document(s): Any separate sheet of paper labeled “Additional Disclosure – Federal Truth-inLending Act” which is delivered together with this form is an integrated part of this Agreement.
Change of Name, Address, Employment Status: You understand and agree that you must report to us
any change in your name, address or employment status.
Notice: See the following section entitled Your Billing Rights for important information regarding your right to
dispute billing errors.
Consent to Agreement: You acknowledge receipt of this Platinum MasterCard Credit Card Agreement and
Federal Truth-in-Lending Disclosure Statement by signing the application, by signing the CARD(S), by using
the CARD(S) or by authorizing another to use the CARD(S), and you agree to and accept its terms.

This notice contains important information about your rights and responsibilities under the Fair Credit Billing
Act. Keep this notice for future reference.
In Case of Errors or Questions About Your Bill: If you think your bill is wrong, or if you need more
information about a transaction on your bill, write us on a separate sheet at the address shown on your bill
as soon as possible. We must hear from you no later than 60 days after we sent you the first bill on which
the error or problem appeared. You can telephone us, but doing so will not preserve your rights. In your
letter, give us the following information:
• Your name and account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe there is an error. If you need more
information, describe the item you are unsure about.
If you have authorized us to pay your credit card bill automatically from your share or share draft account,
you can stop the payment on any amount you think is wrong. To stop the payment, your letter must reach us
3 business days before the automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice: We must acknowledge
your letter within 30 days, unless we have corrected the error by then. Within 90 days, we must either
correct the error or explain why we believe the bill was correct. After we receive your letter, we will not try to
collect any amount you question or report as delinquent and we may continue to bill you for the amount you
question, including FINANCE CHARGES. We can apply any unpaid amount against your Credit Limit. You
do not have to pay any questioned amount while we are investigating; however, you are still obligated to pay
the portion of the bill that is not in question. If we find that we made a mistake on your bill, you will not have
to pay any FINANCE CHARGES related to any questioned amount. If we did not make a mistake, you may
have to pay FINANCE CHARGES, and you will have to make up any missed payments on the questioned
amount. In either case, we will send you a statement of the amount you owe and the date that it is due. If
you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our
explanation does not satisfy you and you write us within ten days telling us that you still refuse to pay, we
must tell anyone we report you to that you have a question about your bill. Additionally, we must tell you the
name of anyone we reported you to. We must tell anyone we report you to that the matter has been settled
between you and us once it is resolved.
Special Rule for Credit Card Purchases: If you have a problem with the quality of goods or services that
you purchased with a credit card, and you have tried in good faith to correct the problem with the merchant,
you may have the right not to pay the remaining amount due on the good or services. There are two
limitations on this right:
(a) You must have made the purchase in your home state or, if not within your home state, within 100
miles of your current mailing address; and
(b) The purchase must be more than $50.00
These limitations do not apply if we own or operate the merchant, or if we mailed you the advertisement for
the goods or services.

MasterCard Checks
Check Uses: You can use your MasterCard checks to purchase goods and services or to obtain cash
advances up to the amount of your credit limit. Use of your MasterCard checks is a cash advance on your
account and, as such, no grace period will apply.
Limitations: We are not required to honor a check that will cause you to exceed your credit limit. We will not
pay a check if at the time the check is presented you are in default or your account has been terminated,
suspended or cancelled. Each check must be in the form that has been issued to you. Only the person
whose name is on the check may use checks. You are responsible for all authorized use of your
MasterCard checks. You may not use your MasterCard checks to pay any amount owed on your Platinum
MasterCard Credit Card account.
Returned Check Fee: You will be charged a fee per returned check, which will be billed to your account, if
your check cannot be paid. This fee will be charged to your Platinum MasterCard Credit Card account and
no grace period will apply. See Platinum MasterCard Agreement Rates and Terms for current fee amount.
Stop Payment: Payment cannot be stopped on MasterCard checks.
Chargebacks: Chargeback rights do not apply to MasterCard checks.
Surrender of MasterCard Checks: MasterCard checks are the property of USE Credit Union. USE Credit
Union reserves the right to revoke them at any time. You agree to return them at USE’s request.

Military Lending Act Disclosure
Federal law provides important protections to members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces
and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include,
as applicable to the credit transaction or account: The costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit transaction; any application fee charged (other than
certain application fees for specified credit transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account). Please call 866.562.6639 to receive
disclosures by phone.

866.873.4968 | usecu.org
© Copyright 2017 USE Credit Union

V11/1706634 (10/17)

